              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Plutonium-238 Production




DOE/IG-0607                                 June 2003
                                Department of Energy
                                     Washington, DC 20585
                                     June 19, 2003




MEMORANDUM FOR

FROM:
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Plutonium-238
                          Production"


BACKGROUND

The Department of Energy must maintain a variety of nuclear materials to meet its
mission needs and, based on the Atomic Energy Act of 1954 and the principle of
centralized civilian control of such materials, the nuclear material needs of other Federal
agencies. For example, the Department of Defense and the National Aeronautics and
Space Administration (NASA) depend on the Department of Energy to supply
plutonium-238 to meet certain mission requirements involving national defense and space
exploration. Plutonium-238 is used in the manufacture of radioisotope power systems
that have a number of national security and scientific applications.

In the late 1980s, the Department terminated production reactor activity at the Savannah
River Site. As part of this action, the Department lost its ability to produce
plutonium-238. In 1992, the Department entered into a contract with Russia under which
the Department could purchase up to 40 kilograms of plutonium-238 over a 10-year
period to support NASA mission needs. A new contract was recently signed that will
allow the Department to continue purchasing plutonium-238; however, an agreement
between the United States and Russia stipulates that this material may only be used for
non-military purposes. To date, the Department has met national security needs through
the use of its existing inventory.

In January 2001, a record of decision was issued requiring reestablishment of the
Department's capability to domestically produce up to 5 kilograms of plutonium-238 per
year, a level of production estimated to be sufficient to satisfy future national security and
NASA mission needs. The objective of this audit was to assess the Department's
progress in reestablishing a plutonium-238 production capability.

RESULTS OF AUDIT

Unless the Department accelerates its program to reestablish a plutonium-238 production
capability, it risks being unable to meet future national security and NASA requirements.
While national security needs can be met with existing stockpiles through 2010, the



                                @     Printed with soy ink on recycled paper
                                             2


Defense Department has indicated it may need more material in future years.
Additionally, there are concerns about whether purchases from Russia will be adequate to
meet NASA's long-term requirements. And, even under the most favorable scenarios, a
domestic production capability is at least five to six years away. Our audit identified
three actions the Department should take to accelerate its program and ensure that an
adequate supply of plutonium-238 is available to meet future requirements:

      0   Institute project management controls over the project to reestablish a
          plutonium-238 production capability, such as critical decision processes, a
          lifecycle cost analysis, and a project execution plan;
      0   Work with its customers to better define long-term needs for plutonium-238; and,
      0   Designate the project as a high priority, and request funding from Congress
          accordingly.

As noted in our special report on Management Challenges at the Department of Energy,
DOEAG-0580, December 2002, the Department faces a complex set of national security
challenges related to defending the Nation against worldwide threats. Continuing delays
in reestablishing a domestic plutonium-238 production capability could adversely impact
the Department's ability to meet its core national security mission, as well as those of the
Department of Defense, NASA, and other Governmental users.

MANAGEMENT REACTION

Management generally concurred with the audit finding and recommendations and agreed
to take corrective action.


Attachment

cc:       Deputy Secretary
          Under Secretary for Energy, Science and Environment
          Director, Office of Nuclear Energy, Science and Technology
PIuto nium-238 Production

TABLE OF
CONTENTS



                   Project Management

                   Details of Finding .......................................................................   1

                   Recommendations and Comments ..........................................                      .4


                   Appendices

                   1 . Objective, Scope, and Methodology .....................................                  6

                   2. Management Comments.......................................................                8
PROJECT MANAGEMENT


Current and              Without the ability to produce plutonium-238, long-term needs for the
Projected Requirements   material could go unmet. While current requirements can be satisfied
                         with existing stockpiles and purchases from Russia, after 20 10,
                         additional material will likely be needed. However, the reestablishment
                         of a domestic production capability - which will take five to six years -
                         has been delayed.

                         Currently identified national security applications will consume a
                         majority of the Department of Energy's (Department) plutonium-238
                         inventory and only leave a small amount of material in reserve. In
                         December 2002, the Deputy Secretary of Defense wrote to the
                         Department expressing concern about the finite supply of plutonium-
                         238 and the lack of a capability to produce more of the isotope. He
                         noted that, since the terrorist attacks of September 11,2001,
                         radioisotope power systems had become of greater importance to
                         certain Defense programs. The letter warned that without an assured
                         long-term supply, the Defense Department might be unable to complete
                         some of its critical missions. In February 2003, the Deputy Secretary of
                         Energy notified the Defense Department that he was committed to
                         supporting vital national security missions. Further, although it was too
                         late to affect the Fiscal Year (FY) 2004 budget process, the Department
                         will work toward obtaining the funding needed to support reestablishing
                         a plutonium-238 production capability in FY 2005.

                         The National Aeronautics and Space Administration's (NASA)
                         identified requirements for plutonium-238 total about 26 kilograms (kg)
                         through 2010. However, the Department has only 9 kg in inventory that
                         is not reserved for other purposes, leaving a potential shortfall of 17 kg.
                         Although current plans are to buy the additional material from Russia,'
                         there are doubts about the long-term viability of this strategy.
                         Specifically, the Department noted that the political and economic
                         climate in Russia creates uncertainties that could affect the reliability of
                         this source to satisfy future NASA mission requirements.

                         Meanwhile, the Department has not made significant progress toward
                         the reestablishment of a domestic production capability. In September
                         1999, the Department's Oak Ridge National Laboratory developed a
                         pre-conceptual design plan for the chemical processing activities



                         ' An agreement between the United States and the Russian Federation limits
                         purchased plutonium-238 to nonmilitary applications. However, it may be used to
                         support NASA's space exploration missions.


Page 1                                                                               Details of Finding
                     associated with plutonium-238 production. Additionally, in October
                     2001, the Laboratory developed a preliminary project plan containing a
                     summary level project schedule, a detailed work breakdown structure,
                     and an estimated finding profile. However, the Department has not
                     approved or acted on either plan. For example, the Department had not
                     initiated procurement of specialized equipment needed to support
                     plutonium-238 production. Given estimates that reestablishing
                     production capability will take at least five to six years, failure to begin
                     the process in the near term could lead to a future gap between national
                     requirements and available supplies.

Project Management   The Department's Office of Nuclear Energy, Science and Technology
and Funding          (Nuclear Energy) is charged with reestablishing the capability to produce
                     plutonium-238. We identified three actions that, in our judgment,
                     Nuclear Energy should take to ensure that the capability is available to
                     meet fiture requirements.

                                            Treatment as a Maior Proiect

                     Typically, Department projects estimated to cost more than $5 million
                     are completed within the project management framework established by
                     Department Order 413.3, Program and Project Management for the
                     Acquisition of Capital Assets. The order requires a series of actions,
                     called critical decisions, which must occur at specific points in a
                     project's life. Critical decisions include development of a mission need
                     statement; development of an acquisition strategy; completion of an
                     independent project review; and, approval by the appropriate Under
                     Secretary. Additional project management documents, such as a life-
                     cycle cost analysis and a project execution plan, are also generally
                     required. Although reestablishing a plutonium-238 production
                     capability is estimated to cost about $76 million, Nuclear Energy had not
                     initiated the critical decision process for this project. Given that the
                     Secretary issued a record of decision on the project more than two years
                     ago, it is appropriate for Nuclear Energy to begin using the generally
                     accepted project management tools called for in Department policy.
                     Doing so will help ensure that a schedule is developed and that
                     milestones are established that will help to meet hture requirements for
                     the material.

                                            Long-term Customer Needs

                     While both the Defense Department and NASA have indicated they will
                     have continuing requirements for plutonium-238, the Department has not



Page 2                                                                       Details of Finding
         been able to obtain long-term estimates from these customers as to the
         probable quantities needed. In December 2000, NASA and the
         Department established a joint team to recommend a strategy for the
         provisioning of safe, reliable, and affordable radioisotope power
         systems for space exploration missions in the 2004 to 201 1 timefiame.
         However, the team concluded that NASA's projected requirements were
         not sufficiently precise to serve as a basis for Department planning. A
         similar situation exists with the Defense Department, which has clearly
         expressed its concern about the lack of production capability, but has
         not indicated how much plutonium-238 it will need beyond 2010. In
         our judgment, the Department will be in better position to develop an
         efficient and economical production capability if it can work with its
         customers to better define long-term needs.

                                    Funding Requests

         We also noted that the Department has not requested adequate funds
         from Congress to reestablish a domestic production capability. In fact,
         as illustrated in the table below, for the three most recent fiscal years,
         the Department has requested onIy a fraction of the amount that Nuclear
         Energy estimated the project required.


                       Plutonium-238 Project Budget Requests
                                  (in thousands)
                                             FY 2001      FY 2002      FY 2003
         NE Estimated Funding Needs            $9,400       $9,200     $10,200

         Department Request to Congress         1,600
                                               -~             1,100        950
         Estimated Budget Shortfall            $7.800       $8.100      $9.250

         In total, the Department requested about $25 million less than needed
         during the last three fiscal years. While the Office of Inspector General
         recognizes that the Department must budget for many competing
         interests associated with a variety of mission-critical projects, this
         funding request profile is not consistent with the 2001 record of
         decision and raises doubt about whether the project can be completed
         within the necessary timeframe. To Nuclear Energy's credit, we
         concluded that the limited resources obtained to date have been used to
         address important technical issues relevant to the project's ultimate
         success.


Page 3                                                        Details of Finding
~




    Mission Risks     In his December 2002 letter to the Department, the Deputy Secretary
                      of Defense noted that radioisotope power systems - which depend
                      on plutonium-238 - were critical to Department of Defense
                      applications. In particular, the Deputy Secretary stated that
                      radioisotope power systems have become more essential to vital
                      Defense programs since the terrorist attacks of September 11,2001.
                      Further, he clearly indicated that the success of some of those efforts
                      was linked to an unintempted supply of the required nuclear
                      material. Given the finite quantities now in existence, fbrther delays
                      in the reestablishment of production capability appear to increase the
                      risk that critical national security missions could be negatively
                      impacted.

                      Over the next decade, NASA also plans to make extensive use of
                      radioisotope power systems on missions to Mars and the outer solar
                      system. Although NASA's requirements for plutonium-238 are
                      being met with existing stockpiles and additional purchases from
                      Russia, as previously noted, the Department has expressed
                      uncertainty about Russia as a long-term source. As such, the success
                      of fbture space exploration missions may also be tied, to some
                      degree, to the Department's timely reestablishment of its plutonium-
                      238 production capability.

    RECOMMENDATIONS   We recommend that the Director, Office of Nuclear Energy, Science
                      and Technology:

                          1. Initiate the Department's critical decision process for the
                             plutonium-238 production project and follow established
                             project management processes to ensure efficient and
                             effective operations;

                         2. Notify the Defense Department and NASA of the lead time
                            necessary to supply plutonium-238 for national security and
                            space exploration applications and request that they provide
                            the Department with firm estimates of fbture plutonium-238
                            needs; and,

                         3. Designate plutonium-238 production as a high priority
                            project, aggressively pursue the level of funding necessary to
                            reestablish a domestic production capability, and initiate
                            procurement of the specialized equipment needed.




    Page 4                                           Recommendations and Comments
MANAGEMENT         Management generally concurred with the audit finding and
REACTION           recommendations and agreed to take corrective actions.
                   Management stated that it will initiate the Department's formal
                   critical decision process for managing projects and coordinate the
                   need for hnding with the Department's FY 2005 budget cycle. In
                   addition, management will notify user agencies of the schedule for
                   the availability of plutonium-238 as production plans are finalized,
                   and maintain a constant dialogue with users to stay apprised of
                   evolving mission plans and related requirements for plutonium-238.

                   Management did not agree that progress toward reestablishing a
                   domestic plutonium-238 production capability was delayed because
                   the Department had not instituted typical project management
                   controls or identified the long-term needs of its customers.
                   Management stated that it had maintained the option to resume
                   production in the future, and that reestablishing a production
                   capability could be deferred until the urgency became more evident
                   from a user perspective. This deferral had nothing to do with how
                   management controls were or were not implemented, or whether the
                   long-term generic need was recognized.

AUDITOR COMMENTS   Management's proposed actions satisfy the intent of our
                   recommendations. We recognize that the primary cause of the
                   deferral was the lack of urgency in pursuing funds. However, the
                   lack of project management controls and identification of long-term
                   customer needs have also delayed project execution. Department
                   policy calls for the establishment and maintenance of strong project
                   management organizations and systems, and requires the use of
                   appropriate project management tools. We do not believe that the
                   Department can successfully reestablish plutonium-238 production
                   or fully justify its mission needs until a sound management
                   framework is in place and its customers' needs are known.




Page 5                                           Recommendations and Comments
Appendix 1

OBJECTIVE     The objective of this audit was to assess the Department's progress in
              reestablishing a plutonium-238 production capability.

SCOPE         The audit was performed from May 2002 through January 2003 at the
              Office of Nuclear Energy, Science and Technology in Germantown,
              Maryland; Oak Ridge National Laboratory in Oak Ridge, Tennessee;
              Idaho National Engineering and Environmental Laboratory near Idaho
              Falls, Idaho; and Los Alamos National Laboratory in Los Alamos, New
              Mexico. The scope of the audit was limited to the reestablishment of a
              domestic plutonium-238 production capability to support national
              security and NASA missions. The issues identified in the report should
              be considered by the Department when preparing its annual assurance
              memorandum on management controls.

METHODOLOGY   To accomplish the audit objective, we:

                  0   Reviewed Departmental policies, orders, guides, and manuals
                      related to the acquisition of capital assets and project
                      management;

                  0   Reviewed the Office of Nuclear Energy, Science and
                      Technology strategic plan and budget requests;

                  0   Analyzed the Department's December 2000 Final
                      Programmatic Environmental Impact Statementfor
                      Accomplishing Expanded Civilian Nuclear Energy Research
                      and Development and Isotope Production Missions in the
                      United States, Including the Role of the Fast Flux Test Facility,
                      and the related record of decision for resuming the domestic
                      production of plutonium-238;

                  0   Analyzed Oak Ridge National Laboratory's October 2001
                      Preliminary Project Plan for Reestablishing Domestic
                      Plutonium-238 Production, and September 1999 Preconceptual
                      Design Planning for Chemical Processing to Support
                      Plutonium-238 Production; and,

                 0    Analyzed September 30,2001, nuclear materials inventory
                      assessment data.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to


Page 6                                         Objective, Scope, and Methodology
         tests of internal controls and compliance with laws and regulations to
         the extent necessary to satisfy the audit objective. Accordingly, we
         assessed the significant internal controls related to the Department's
         plan to reestablish a domestic plutonium-238 production capability.
         Because our review was limited, it would not necessarily have disclosed
         all internal control deficiencies that may have existed at the time of our
         audit. Also, we did not assess the reliability of computer-processed
         data because only a limited amount of computer-processed data was
         used during the audit. Finally, we assessed the Department's
         compliance with the Government Performance and Results Act of 1993.
         We found that the Department had not established any performance
         measures to evaluate its progress towards reestablishing a 5 kg per year
         plutonium-238 production capability.

         The Office of Nuclear Energy, Science and Technology waived the exit
         conference.




Page 7                                    Objective, Scope, and Methodology
Appendix 2
   United States Government                                                  Department of Energy


   memorandum
         DATE        April 28,2003

    KEPI.\’ I C )
    A T r s OF       NE-50
    sl I R j F t T   Comments on Draft .i\udit Report on “Pluton~um-238Production”
             ‘IG     Frederick Doggett
                     Deputy Assistant Inspector General for Audit Services
                     Office of Inspector General

                     We have reviewed your draft report on the subject audit, and we accept the three general
                     recommendations presented in thc Kecomttiendations section of the report. Our concurrence
                     and planned actions for each recommendation are outlined i n attachment 1.

                     The Office of Xuclear Encrgy. Scicnce and Technology has been pursuing the
                     reestablishment of a domestic plutonium-238 production capability for several years. As you
                     reference in your draft report, a recent exchange of letters between the Deputy Secretary of
                     Defense and the Deputy Secretary of Energy has placed greater priority on reeslablishing this
                     capability, and the Department of Energy has committed to include this effort in the decision
                     making process of the FY 2005 budget cycle. The Office of Nuclear Energy, Science and
                     Technology will also initiate the formal Departmental critical decision process. Efforts will
                     also continue to work with the user agencies to better define their projected needs; however,
                     we recognize that it is difficult to identify far in advance the specific missions that will use
                     this material.

                     Though we accept thc three general recommendations, we take exception to the three bullets
                     in the Results of Audit section of the cover memorandum from Mr. Friedman to the
                     Secretary. These three bullets state that “...a domestic production capability was delayed
                     because the Department had not:

                         instituted typical project management controls;
                         identified the long-term needs of its customers; and
                         requested adequate funding from Congress.”

                     Only the third bullet has any real bearing on the delay in implementation of a domestic
                     plutonium-238 production capability. The Department recognized the eventual need for this
                     capability and has been requesting funding to maintain the option for future implementation.
                     IIowever, with all of its overall budget priorities, the Department felt this capability could be
                     deferred until thc urgency became more evident from a user perspective. This deferral had
                     nothing to do with how management controls were or were not implemented or whether the
                     long-temi generic need was recognized.




Page 8                                                                                          Management Comments
Appendix 2 (continued)


                                                                                                            2

         The recent letter from the Deputy Secretary of Defense has iiow provided the urgency that
         will give this project priority in the budget request process. With this urgency. it ISalso iiow
         appropriate to initiate the formal critical management decision proccss and to try to better
         define the actual user requirements.

         \Ye behevc that the summary letter to the Secretary should be changcd to reflect this more
         accurate perspective of the true situation. ?‘he summary letter should not imply reasons for
         the delay that arc not factual.

         There are also some other statements in the report that are not strictly factual and some
         statements that may be misinterpreted. These arc highlightcd i n a sccond attachment. and we
         recommend that you make appropriate clarifications.




                                                   Office of Nuclear Energy, Science
                                                    and Technology

         3 httachnients




Page 9                                                                             Management Comments
                                                                              IG Report No.: DOE/IG-0607

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name                                          Date

Telephone                                      Organization

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG- 1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
